HHS/OIG-Audit--"Follow-up on Weaknesses in Repatriation Program, (A-12-92-00026)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up on Weaknesses in Repatriation Program," (A-12-92-00026)
August 27, 1992
Complete
Text of Report is available in PDF format (571 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our follow-up review of the Office
of Refugee Resettlement (ORR) Repatriation Program (RP). We found that the recommendations
from our previous report were implemented. The ORR had taken steps to improve
the receipt of billing reports, but States were still submitting reports late,
and in a small number of cases without adequate documentation. We also observed
that the RP had not established an allowance for doubtful accounts receivable.
As much as 90 percent of the accounts receivable were not collected. As a result,
the accounts receivable as reported to the Department and external agencies
was overstated. The Assistant Secretary for Children and Families concurred
with our report.